KANNON K. SHANMUGAM
TELEPHONE
FACSIMILE

(202) 223-7325
(202) 204-7397

E-MAIL: kshanmugam@paulweiss.com

October 22, 2019

BY MESSENGER AND ELECTRONIC FILING
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Seila Law LLC v. Consumer Financial Protection Bureau, No. 19-7

Dear Mr. Harris:
I represent petitioner in the above-captioned matter. I am writing to inform
you that petitioner consents to the filing of any and all briefs of amici, whether in
support of either or neither party, at the merits stage. Should you need any
additional information, please do not hesitate to let me know.
Yours sincerely,
Kannon K. Shanmugam

cc:

Noel J. Francisco, Esq. (by U.S. mail)

